No.
IN THE SUPREME COURT OF THE UNITED STATES
DAVID COPES,
PETITIONER,
- VS. UNITED STATES OF AMERICA,
RESPONDENT.
CERTIFICATE OF SERVICE
BRETT G. SWEITZER hereby certifies:
That he is a member of the Bar of the Supreme Court of the United States.
That on June 4, 2021, the petition for writ of certiorari and accompanying appendix in the
above-entitled case was deposited in a United States Post Office mail box located in Drexel Hill,
Pennsylvania, with first class/priority postage prepaid, properly addressed to the Clerk of the
Supreme Court of the United States and within the time allowed for filing said petition for writ
of certiorari.
That a copy of the petition and appendix were served on the following individual at the
address shown below:
Elizabeth Prelogar, Esquire
Acting Solicitor General of the United States
Room 5614 - U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
It is further certified that a copy was served upon Assistant United States Attorney and
Chief of Appeals, Robert A. Zauzmer at:
Robert A. Zauzmer, AUSA
United States Attorney’s Office

615 Chestnut Street, Suite 1250
Philadelphia, PA 19106
Bob.Zauzmer@usdoj.gov
Dated this 4th day of June, 2021
/s/ Brett G. Sweitzer
BRETT G. SWEITZER
Assistant Federal Defender
Chief of Appeals
Counsel of Record
LEIGH M. SKIPPER
Chief Federal Defender
FEDERAL COMMUNITY DEFENDER OFFICE
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
Suite 540 West – The Curtis
601 Walnut Street
Philadelphia, PA 19106
(215) 928-1100
Counsel for Petitioner

